<html>
<title> - SECURITY CLEARANCE INVESTIGATION CHALLENGES AND REFORMS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


        SECURITY CLEARANCE INVESTIGATION CHALLENGES AND REFORMS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 11, 2017

                               __________

                           Serial No. 115-41

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-761 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a6c1d6c9e6c5d3d5d2cec3cad688c5c9cb88">[email&#160;protected]</a>                      
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     Jimmy Gomez, California
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                  Robert Borden, Deputy Staff Director
                    William McKenna General Counsel
           Jack Thorlin,  Deputy Subcommittee Staff Director
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

                 Subcommittee on Government Operations

                 Mark Meadows, North Carolina, Chairman
Jody B. Hice, Georgia, Vice Chair    Gerald E. Connolly, Virginia, 
Jim Jordan, Ohio                         Ranking Minority Member
Mark Sanford, South Carolina         Carolyn B. Maloney, New York
Thomas Massie, Kentucky              Eleanor Holmes Norton, District of 
Ron DeSantis, Florida                    Columbia
Dennis A. Ross, Florida              Wm. Lacy Clay, Missouri
Rod Blum, Iowa                       Brenda L. Lawrence, Michigan
                                     Bonnie Watson Coleman, New Jersey
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 11, 2017.................................     1

                               WITNESSES

Mr. Charles S. Phalen, Jr., Director, National Background 
  Investigations Bureau, Office of Personnel Management
    Oral Statement...............................................     5
    Written Statement............................................     8
Mr. Garry P. Reid, Director of Defense Intelligence, Office of 
  the Under Secretary of Defense for Intelligence, U.S. 
  Department of Defense
    Oral Statement...............................................    14
    Written Statement............................................    16
Mr. William R. Evanina, Director, National Counterintelligence 
  and Security Center, Office of the Director of National 
  Intelligence
    Oral Statement...............................................    19
    Written Statement............................................    21
Mr. A.R. ``Trey'' Hodgkins III, Senior Vice President, Public 
  Sector Information Technology Alliance for Public Sector
    Oral Statement...............................................    25
    Written Statement............................................    27

                                APPENDIX

Opening Statement of Ranking Member Gerald E. Connolly...........    56

 
        SECURITY CLEARANCE INVESTIGATION CHALLENGES AND REFORMS

                              ----------                              


                      Wednesday, October 11, 2017

                  House of Representatives,
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:01 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Mark Meadows 
[chairman of the subcommittee] presiding.
    Present: Representatives Meadows, Hice, Jordan, DeSantis, 
Blum, Maloney, and Norton.
    Also Present: Representative Krishnamoorthi.
    Mr. Hice. [presiding.] Subcommittee on Government 
Operations will come to order. Without objection, the chair is 
authorized to declare a recess at any time.
    Today's hearing will cover a topic of great importance. How 
to ensure security clearance investigations are effective and 
efficient. We're discussing this now because of the record 
700,000 investigation backlog of background investigations 
throughout the Federal Government.
    For would-be Federal or contractor employees awaiting their 
first clearance, the backlog means they have to wait months 
before they can start working.
    The problem calls for thoughtful analysis and meaningful 
reform, not knee-jerk reactions and superficial solutions.
    Unfortunately, we appear to be on the verge of knee-jerk 
reaction. Transferring responsibility for the vast majority of 
clearance investigations, back to the DOD away from the 
National Background Investigations Bureau.
    I say ``back to,'' because in a similar record backlog 
situation in 2004, DOD gave up the investigation 
responsibility. Back then, DOD thought it needed to focus on 
its function of defending the country, so it tasked the Office 
of Personnel Management with the labor-intensive investigations 
function.
    Today, only a year after the creation of the NBIB, the 
Senate NDAA contains a provision that would transfer the 
investigation function back to the DOD.
    Though DOD has put out a plan for how it would take over 
investigations, it has yet to issue much in the way of an 
argument as to why it should do so. There are much clearer 
reasons for why it should not.
    Standing up a DOD investigation capacity while NBIB is 
still operating would obviously be duplicative to agencies 
literally doing the same thing. NBIB has only recently managed 
to hire enough contractor investigations to match what the 
Federal Government could muster in 2014 before a scandal 
involving one contractor forced OPM to terminate 60 percent of 
the contractor workforce.
    A major shift of resources to DOD would halt the growth and 
the contractor workforce that is digging the government out of 
the backlog hole. There is every reason to believe, therefore, 
that a transfer would worsen the backlog and deprive our Armed 
Forces of the people they need to function.
    At the same time, NBIB is spearheading new reforms in 
technology and administration to make the process more 
efficient. The ongoing reform effort could be slowed or 
abandoned altogether, as DOD spends its institutional energy 
simply recreating what already exists at NBIB.
    The contractor community shares these concerns. The people 
whose money depends most on a functioning investigation system 
are telling us not to transfer investigations back to DOD.
    I hope today's hearing will help Congress make an informed 
decision on whether to go ahead with the transfer to DOD 
through the NDAA process.
    I would like to thank our witnesses for being here today 
and I look forward to hearing from your testimony.
    I now would like to recognize the ranking member, Ms. 
Norton, for her opening statements.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Thank you for holding this hearing to examine both the 
current backlog in the Federal security clearance 
investigations, and potential reforms to the background 
investigation process.
    Last month, the National Background and Investigations 
Bureau reported a backlog of approximately 700,000 security 
applications. This backlog and the lengthy wait time for 
security clearances is unacceptable.
    It is critical that the NBIB address this problem and 
important for Congress to provide and resolve the necessary 
resources and support to do so.
    Since it first began operating in October 1, 2016, the NBIB 
has been tasked with the challenge of not only improving the 
Federal Government's process for conducting background checks, 
but also bringing down the growing security clearance backlog.
    Since its creation, the NBIB has made several enhancements 
to the security clearance investigation process. For example, 
it developed a continuous evaluation program for monitoring an 
employees's or contractor's eligibility to maintain access to 
classified information. And earlier this year, the NBIB created 
a new law enforcement unit to improve the government's ability 
to gain access to criminal history records of State and local 
enforcement agencies.
    This is an important change that could eliminate a critical 
gap in how background checks were previously conducted. The gap 
has enabled an unknown number of people to gain security 
clearances they probably should not have received. The 
importance of gaining access to criminal history records became 
all too clear on September 6, 2013 when Aaron Alexis, a Federal 
contractor, with a secret level clearance entered the 
Washington Navy Yard, killed 12 people and injured four others.
    During the investigation into that incident, we learned 
that the background investigation of Mr. Alexis failed to 
identify his history of gun violence.
    Local police records of his 2004 firearms arrest had never 
been provided to Federal investigators. Improving the level of 
communication between local law enforcement agencies and 
Federal background investigators can prevent future tragedies 
like the one at the Navy Yard here in the District of Columbia.
    While the NBIB has made some gains in improving the 
background investigation process, it has struggled to reduce 
the heavy backlog of security clearance applications.
    The current backlog is largely due to termination of the 
contract that U.S. Investigation Services had with the Office 
of Personnel Management to conduct background checks. USIS had 
previously performed the bulk of background investigations for 
OPM, but was caught defrauding the government on a massive 
scale, allegedly dumping 665,000 background check cases, 
indicating to OPM that the background checks had been complete 
when the proper reviews had not taken place.
    OPM had no choice but to terminate the contract with that 
company. At the time of USIS's termination, it held 60 percent 
of the Federal Government investigative capacity for background 
checks. OPM remains unable to fully replace the significant 
amount of capacity that was lost with USIS's termination, and 
we need to know why.
    Various proposals have been put forward to address the 
backlog. The most notable of these is the Department of Defense 
plan that would strip the NBIB of its background investigations 
for DOD personnel.
    Most recently, the Senate has included language in its 
draft of the National Defense Authorization Act for fiscal year 
2018 that would adopt DOD's plan. The DOD plan raises serious 
concerns. Namely, it could potentially increase, rather than 
decrease, the existing backlog for security clearances.
    According to the DOD plan, it would take the Department at 
least 3 years to even assume responsibility from the NBIB for 
background checks of its personnel. During that 3-year 
transition period, the NBIB would be expected to use its 
limited resources to help the DOD build the capacity required 
to perform its own background checks, which may result in 
additional backlogs at the BIB. The BIB has examined DOD's 
proposal and found it has potential to, and I quote, 
``exacerbate the current investigative backlog,'' end quote.
    OPM has also examined DOD's plan and reached the same 
conclusion. Outside of the Federal Government, policy 
organizations ranging from the Information Technology Industry 
Council to the Professional Services Council, have reported 
that DOD's plan would, and I quote, ``cause further delays.''
    Transferring a significant portion of the NBIB's 
responsibilities to the DOD also risks returning to a process 
that was previously found to be inefficient.
    Prior to 2005, DOD was responsible for conducting 
background investigations of its own personnel. During that 
time, the government accountability office issued a series of 
reports that raised concerns over the quality and the 
timeliness of those investigations.
    The most significant of those reports was released in 1999 
in which the GO found that, and I quote, ``DOD personnel 
security investigations are incomplete and not conducted in a 
timely manner,'' end quote.
    DOD's failure to adequately handle its own security 
clearance investigations was a primary reason that 
responsibility was transferred to OPM in 2005.
    Congress needs to seriously examine the best means to 
reduce the current backlog, but we must do so in a way that 
balances the need to expedite the process without sacrificing 
the quality of those investigations.
    The Navy Yard shooting, and high profile National Security 
leaks, such as the one carried by the contractor, Edward 
Snowden, highlight the need for ensuring that background checks 
are conducted in a thorough and efficient manner.
    I want to thank the witnesses for testifying today. We look 
forward to hearing from each of you on ways we can strengthen 
the Federal Government's capabilities when it comes to security 
clearance investigations.
    And I thank you again, Mr. Chairman.
    Mr. Hice. Thank you. At this time, I'm pleased to introduce 
our witnesses.
    First, we have Charles Phalen, Jr., the Director of the 
National Background Investigations Bureau at the Office of 
Personnel Management.
    Next to him is Garry Reid, Director of Defense Intelligence 
in the Office of Under Secretary of Defense for Intelligence at 
the Department of Defense.
    Next is William Evanina, is that correct?Mr. Evanina is the 
Director of the National Counterintelligence and Security 
Center at the Office of the Director of National Intelligence.
    And then finally, Mr. Trey Hodgkins, III, Senior Vice 
President For the Public Sector At the Information Technology 
Alliance.
    I want to thank each of you for being here today. And 
welcome you all pursuant to the committee rules. All witnesses 
will be sworn in before they testify. So at this time, if you 
would please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give is the truth, the whole truth, and nothing but 
the truth so help you God?
    Mr. Hice. The record will reflect that all witnesses 
answered in the affirmative, and we appreciate it.
    In order to allow time for discussion, please, I would ask 
that you limit your testimony to 5 minutes, knowing that your 
entire written statement will be made part of the record.
    As a reminder, the clock there in front of you shows your 
remaining time. When the light turns yellow, you have 30 
seconds remaining, and then when it turns red, your time is up. 
So please, wrap it up as rapidly, as quickly as you can at that 
point.
    And, please, also remember to press the button for your 
speaker. And I'd ask that you'd put the microphone up there 
closely right in front of you so we can hear.
    So at this time, Mr. Phalen, I'm honored to recognize you 
for 5 minutes. And thank you for being here.

                       WITNESS STATEMENTS

                  STATEMENT OF CHARLES PHALEN

    Mr. Phalen. Thank you, Mr. Chairman, ranking member and 
members of the subcommittee. I'm Charles Phalen, Jr., and I'm 
the Director of the National Background Investigation Bureau of 
the Office of Personnel Management, and I do appreciate the 
opportunity to appear before you today.
    Over the past year, since we stood up on October 1st, NBIB 
has established a strong focus on National Security, customer 
service, and continuous process and improvement to meet the 
critical government-wide need for a trusted workforce.
    NBIB conducts 95% of the investigations across the Federal 
Government, even those few agencies that have delegated or 
statutory authority to conduct their own investigations, such 
as some agencies in the intelligence community, rely on NBIB 
services in some capacity.
    Our organizational structure is aimed at leveraging 
automation to the greatest extent possible, transforming 
business processes and enhancing customer engagement and 
transparency. And I strongly believe that these efforts are 
paving the way for improvements in the efficiency, cost 
effectiveness and the quality of the investigations in the 
Federal Government.
    I would like to address NBIB's existing investigative 
backlog, which has been the subject of much attention. The 
current inventory stabilized this summer and has reduced 
modestly over the last 10 weeks.
    Our current inventory is approximately 704,000 
investigative products, including simple record checks, 
suitability and credentialing investigations, along with the 
more labor-intensive national security investigations and 
reinvestigations.
    The total number of investigative products is greater than 
the number of individuals that are waiting for their first 
security clearance to begin working on behalf of the 
government.
    A significant percentage of individuals waiting for their 
initial national security investigations are working under 
interim clearances pending completion of the full investigation 
and ultimate adjudication.
    NBIB has worked to increase capacity and realize 
efficiencies in as many ways as possible.
    Stabilization and modest increases have been attained 
because we have invested in the necessary infrastructure. This 
infrastructure has been built through contractor and Federal 
workforce capacities.
    In 2016, NBIB hired 400 new Federal investigators, and 
awarded a new field work contract doubling our field work 
contract companies from 2 to 4.
    In 2017, we initiated hiring another 200 Federal 
investigators, issued work under those new contracts, and we 
are working closely with the vendors to quickly increase the 
capacity of our contract investigators. We had a goal in 2017, 
and we missed it by about 6 percent, but we are at, or near the 
level of contract investigations and Federal investigators that 
we had in 2014. We have recovered to that level.
    As of today, that's a little over 6,900 full-time 
equivalent investigators working on our behalf. We are targeted 
to grow that number.
    NBIB also believes its capacity can be increased to the 
smarter use of our workforce's time. The less time each 
investigator needs to spend on each case, the more time the 
investigator has for the next case in his or her own queue. 
This has led us to streamlining processes, reallocating 
resources and amending our internal policies for greater 
efficiencies and effectiveness while maintaining quality and 
reciprocity for all of the government.
    Use of investigator time can also be the strengthened 
through effective use of technology and other available tools. 
Our efforts have targeted surgical approaches, such as 
successfully expediting 14,000 cases in accordance with 
agencies' prioritize list, and done that in an average time of 
95 days.
    NBIB has actively enhanced customer service and 
accountability in a number of ways, including realigning price 
adjustments earlier this fiscal year to better align with 
agencies' budget cycles.
    NBIB is focused on policy and process changes to add 
efficiency, reduce the level of effort and maintain the 
investigative quality. And to support this effort, we work 
closely with the Department of Defense and other customer 
agencies. We're working to address current challenges and 
introduce mitigation activities to best serve the interest of 
all government agencies and departments.
    We will, with the support of its interagency partners, 
make, and will continue to make, improvements on the background 
process. We have strengthened our partnership with DOD while 
building the National Background Investigation Services, NBIS, 
which will serve as NBIB's IT system for the whole of 
government, to perform background investigations across the 
spectrum.
    As NBIS comes online, we will be able to phase out our 
legacy systems in favor of NBIS. It is imperative that this 
mission evolve by leveraging cutting-edge technologies and 
applying innovative solutions to obtain rich and valid 
information in support of clearance determinations. It is 
equally important that the process, improvements, and 
methodologies have made it across the entire enterprise in a 
standardized fashion so the quality of investigative products 
facilitate the reciprocity of clearances across the Federal 
Government.
    As we work to reduce the inventory, we will continue to 
explore new and innovative ways to meet our customers' needs 
and leverage their expertise, and remain transparent and 
accountable to our stakeholders and to Congress.
    We recognize that solutions reduce the inventory, and to 
maintain the strength of the background investigation program, 
include people, resources and technology.
    And thank you again for the opportunity to speak with you 
here today. I look forward to answering any questions you have.
    [Prepared statement of Mr. Phalen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. [presiding.] Thank you.
    Mr. Reid, you're recognized for 5 minutes.

                   STATEMENT OF GARRY P. REID

    Mr. Reid. Thank you, Mr. Chairman, members of the 
subcommittee. I appreciate the opportunity to participate in 
this hearing today.
    I'll ask for the chair's indulgence on submitting a 
statement for the record as a late-add. We didn't get it over 
here prior to the hearing, but we will get it over here right 
away. Thank you.
    To summarize my statement, the background investigation 
backlog is a matter of significant concern for the Department 
of Defense.
    Long delays in obtaining security clearances are causing 
turmoil in personnel management, mission effectiveness, and 
technology development across the Department. This is within 
our military services, our civil workforce, and our cleared 
industry contractors.
    Despite focused efforts to mitigate the backlog and the 
resultant negative effects on DOD, our senior leaders have 
called for new and innovative approaches to address issues of 
costs, performance, and timeliness within the personnel vetting 
enterprise.
    As the committee is aware, Section 951 of the 2017 National 
Defense Authorization Act, required DOD to develop plans for 
assuming control of our background investigations, as is 
already done by 23 of their Federal agencies.
    On August 25, Secretary Mattis approved the Section 951 
plan and notified Congress, the Director of National 
Intelligence, the Director of the Office of Personnel 
Management, and the, Director of the Office of Management and 
Budget of his intent to look beyond the realm of incremental 
improvements and take full advantage of today's technology to 
alleviate the burdens of costly, time-intensive investigations 
that are hampering our mission-readiness.
    The Department of Defense is well-postured to take these 
bold steps, and cognizant of the risks associated with such an 
endeavor.
    In recent years, with the support of Congress, DOD has 
developed and tested new processes and capabilities for 
continuous evaluation and automated records checks to enhance, 
automate, and accelerate background investigations.
    As of this month, the Department of Defense has 1.1 million 
personnel enrolled in a continuous evaluation program exceeding 
our annual goal. This program has demonstrated clear and 
compelling benefits of ongoing and more frequent vetting of 
cleared personnel.
    These methods, which significantly decrease risks 
associated with periodic reinvestigations, have shown 
convincing results and provide the basis for new approaches to 
modernize the vetting enterprise.
    Executing the Section 951 plan will provide DOD with the 
unique opportunity to build on our existing continuous 
evaluation and automated records checks architecture.
    This work will be done hand in hand with the security and 
suitability executive agents, collaboratively developing 
alternative vetting procedures that ensure continued adherence 
to Federal standards.
    We are ready to begin this process in early 2018, and 
incrementally shift new investigative casework to DOD and 
process them through approved, innovated architectures 
developed in collaboration with the executive agents.
    By optimizing our investments and simplifying service 
delivery, we can achieve significant cost savings and cost 
avoidance, while, more effectively, driving system efficiency.
    As we implement the Section 951 plan, we will remain 
committed to our task to design, build, and operate, secure and 
maintain the National Background Investigative Service NBIS 
that Mr. Phalen referred to. This is the single end-to-end IT, 
shared-service solution for all personnel vetting in the 
government, not only for NBIB, but for other Federal agencies 
that conduct background investigations.
    DOD will remain committed to resourcing NBIB and NBIS 
throughout this transition process. I think that's an important 
point.
    We would also continue to work very closely with the 
executive agents to streamline the legacy process, the process 
that exists today, to continue to identify ways to economize on 
field investigative work. We recently proposed and gained 
approval from colleagues here and in the Performance 
Accountability Council for a series of actions that are 
expected to produce near term reductions in the submission of 
investigative requests and reductions in field work.
    We will continue to collaborate to identify these 
additional measures in parallel with our work to implement the 
Section 951 plan. And as a result of this work, NBIB will 
continue to process every case that DOD has already sent to 
NBIB from now and any point in the future. Once we stand up the 
951 plan and develop alternative processes that are approved 
and vetted, we will route new work into that pipeline. This 
will take new work off of NBIB's plate, allow them to focus on 
the existing work as we continue to develop automated processes 
and feed them back into the overall architecture.
    And, chairman, I would be happy to discuss the plan in more 
detail, and I look forward to your questions.
    Thank you.
    [Prepared statement of Mr. Reid follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you.
    Mr. Evanina, you're recognized for 5 minutes.


                STATEMENT OF WILLIAM R. EVANINA

    Mr. Evanina. Thank you, Chairman Meadows and members of the 
subcommittee. Thank you for the opportunity to be here in front 
of you today.
    As the Director of the National Counterintelligence and 
Security Center, NCSC, I am responsible for leading and 
supporting the counterintelligence and security activities of 
the entire United States Government.
    The Director of National Intelligence, DNI, is designated 
as a security executive agent. In this role,the DNI is 
responsible for the development, implementation, and oversight 
of effective, efficient, and uniform policies and procedures 
governing the conduct of investigations, adjudications, and, as 
applicable, polygraphs for eligibility for access to classified 
information.
    The NCSC has been designated as the lead support element to 
fulfill the DNI's security executive agency responsibilities. 
We're responsible for the oversight and policies governing the 
conduct of investigations and adjudications for approximately 
4.1 million national security cleared personnel.
    The security clearance process includes determining if an 
individual is suitable to receive a security clearance, 
conducting the background investigation, reviewing 
investigation results, determining if the individual is 
eligible for access to classified information, or to hold a 
sensitive position, facilitating reciprocity, and periodically 
reviewing continued eligibility.
    We work closely with the agencies responsible for actually 
conducting the investigations and adjudications, and managing 
other security programs associated with clearances.
    This ensures that our policies and practices are informed 
by those working to protect our personnel and sensitive 
information. In addition to supporting the DNI in its role as 
security executive agent, one of my other responsibilities is 
to support the DNI and the attorney generals' efforts to ensure 
that the departments and agencies across the Federal Government 
have Insider Threat Programs established to help deter, detect, 
and mitigate the actions of individuals who may have the intent 
to unlawfully disclose classified information, or possibly do 
harm to themselves or others.
    The Insider Threat Programs go beyond traditional personal 
security practices implemented upon hiring, and offer an 
ongoing holistic approach to ensuring the well-being of the 
cleared workforce.
    These programs help us to be more proactive in preventing 
unauthorized disclosures by minimizing potential security gaps 
and/or identifying personnel who need assistance in getting 
them help before any damage occurs.
    The very first step in identifying and preventing an 
insider threat is the initial and periodic background 
investigation. This application and subsequent investigation, 
will continue with the clearance holder as the foundational 
assessment throughout the period of time the employee holds 
their security clearance.
    So the interrelationship between the security clearance 
process and the insider threat detection is critical.
    NCSC is engaged as a partner with NBIB and the Department 
of Defense in the transformation of the security clearance 
processes, and remains committed to providing departments and 
agencies policy direction, while continuously assessing new 
ways for improvement.
    We have issued guidance to the community on a broad variety 
of topics, which are listed in my statement for the record.
    Additionally, NCSC, in coordination with NBIB partners with 
Director of OPM, who serves as a suitability and credentialing 
executive agent to align the security clearance process for the 
national security, suitability, and credentialing. This 
collaboration has resulted in a number of achievements, which 
are also listed in my statement for the record.
    We have also implemented efforts to track and report on the 
application of security clearance reciprocity.
    Reciprocity, acceptance of background investigations and 
national security determinations support the employee mobility 
and mission accomplishment, which is a critical element to 
ensure maximum effectiveness in human resource utilization.
    We are extensively engaged in modernizing security 
clearance processes, an effort that includes implementing 
continuous evaluation, to conduct automated record checks on a 
segment of covered individuals between the 5- and 10-year 
periodic reinvestigation cycles when security-relevant 
information may go unreported to security officials. CE is 
being implemented across the executive branch in phases.
    In conclusion, Mr. Chairman, as holders of security 
clearances, we are custodians of our Nation's secrets, 
protecting the American people by protecting those secrets must 
be our highest priority.
    I, along with my colleagues sitting beside me here today, 
are firmly committed to doing everything we can to address 
security clearance investigation challenges, and strengthen our 
Nation's security.
    I look forward to your questions.
    [Prepared statement of Mr. Evanina follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you, Mr. Evanina. Is that better than 
the first time?
    All right. Mr. Hodgkins.

              STATEMENT OF A.R. ``TREY'' HODGKINS

    Mr. Hodgkins. Thank you, Mr. Chairman, and members of the 
subcommittee.
    On behalf of the members of the Information Technology 
Alliance For Public Sector, I am pleased for the opportunity to 
share industry perspectives on the security clearance process 
in its current state.
    I have to start by saying, I sadly feel like a character in 
the movie, Groundhog Day. In the mid-2000's, I testified 
several times before Congress, representing industry in what 
was then described as a clearance process. It was outdated and 
it needed modernization that addressed the backlog that rivaled 
the size of today's. It is a testament to how little has really 
changed.
    The member companies of ITAPS appreciates the attention 
this committee is giving the issue. Like other sectors of the 
industrial base, the Information Technology Sector relies 
heavily on cleared personnel to provide IT goods, services, and 
solutions to the government mission.
    Unfortunately, the process we use today to grant and 
maintain clearances continues to be outdated, and sorely in 
need of modernization, just as it was over a decade ago.
    This is in addition to addressing the short term issue of 
backlog of investigations now numbering over 700,000. To put 
that into perspective, that's about the same number of people 
you represent in your congressional district, Congressman.
    Industry outlined then what we believe was the path forward 
to modernize the clearance process, reduce the opportunity for 
another backlog to appear, and establish a 21st century process 
to protect the interest of the United States.
    These criteria were known as the four 1's, and included one 
application, one investigation, one adjudication, and one 
clearance.
    After meeting with stakeholders for almost a year now, we 
believe that these criteria still fit today's situation, and 
these steps should be used to guide efforts to address the 
existing problems in the system.
    One application speaks to one singular digital form online 
that serves as a basis for a permanent digital security record 
for a clearance holder.
    One investigation speaks to standardized investigation 
metrics and criteria to yield consistent, understandable 
findings that can be used across the government enterprise.
    It also speaks to establishing real-time, continuous 
monitoring as the baseline for tracking clearance holders and 
as a replacement for reinvestigations.
    One adjudication speaks to a dependable and repeatable set 
of standards by which agencies can determine whether an 
individual is eligible and suitable to be granted the privilege 
of a clearance, and for which a determination can be clearly 
understood across the government enterprise.
    Finally, one clearance speaks to a dynamic where an 
applicant only applies one time for a clearance, is 
continuously monitored after it has been granted, and the 
clearance is accessible and transferable government-wide. It 
would also allow for industry personnel to move from one 
contract to another in a reciprocal fashion, all without having 
to undergo additional redundant examination.
    These criteria outline a reform process that will deliver 
and enhance security on a real-time basis, while achieving 
maximum efficiency across the Federal Government.
    Further, we believe that the reformation of the clearance 
process should not just look to catch up and draw down the 
existing backlog, but leverage technological advances to create 
a new dynamic needs of permitting access to our Nation's most 
important information, while securing that information from the 
threats it faces.
    These technologies includes the application of big data 
analytics to the existing and past data set of clearance 
holders, to reveal patterns or anomalies that can lead to the 
discovery of insider threats, applying blockchain technology, 
to secure information and enable trusted information exchange, 
and the use of artificial intelligence to monitor trusted user 
activity and build trusted profiles.
    Finally, industry has consistently supported the concept of 
a singular standardized clearance investigation across the 
government enterprise, and would oppose efforts like Section 
938 of the Senate National Defense Authorization Act, to 
bifurcate the process.
    Such an action would exacerbate, rather than relieve, the 
existing backlog, and enable agencies to silo their behavior 
regarding how they adjudicate and reciprocally treat 
clearances.
    Section 938 would also force the government to compete 
against itself, and artificially inflate costs for the most 
scarcest resource in the process: the investigators.
    Thank you again for the opportunity to share perspectives 
on the state of investigations for clearances and how we should 
resolve and evolve these issues. We look forward to working 
with you to reform and modernize the security process, and I 
look forward to answering your questions.
    [Prepared statement of Mr. Hodgkins follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Meadows. Thank you all for your testimony.
    The chair recognizes the gentleman from Iowa, Mr. Blum.
    Mr. Blum. Thank you, Chairman Meadows, and thank you to our 
panelists for being here today.
    The chairman should not feel bad about mispronouncing 
anyone's name on the panel. Last week I chaired a hearing and 
the gentleman's name was Mr. Hakes, and my notes said ``rhymes 
with cakes.'' So, of course, I addressed him as Mr. Cakes. So 
don't feel bad, Mr. Chairman.
    Mr. Meadows. Thank you.
    Mr. Blum. We currently have a backlog of 704,000 
investigations.
    What is the goal? I'm a businessman. So I hope we have a 
plan. I would like to know what our goal is for that backlog 
and by when. Does anybody have that answer? Because I know 
accountability is not exactly our strong suit in the Federal 
Government, but the voters want accountability.
    Mr. Phalen. I appreciate that. Thank you, sir.
    I'll take a first cut at this. There is a steady state 
inventory level that is about 180,000 cases, and that was where 
it was during the late 2007 through 2014 timeframe, before we 
lost investigative capacity. And within that inventory, we were 
able to complete investigations within the timeliness standards 
that are outlined in the IRTPA legislation.
    Mr. Blum. Why did we lose capacity?
    Mr. Phalen. I'm sorry? When or why?
    Mr. Blum. Why?
    Mr. Phalen. The Office of Personnel Management terminated 
its contractual relationship with USIS, which held about 60 
percent of our investigative capacity as a contract company.
    Mr. Blum. They were circumventing the contractual rules, 
correct?
    Mr. Phalen. So I would----
    Mr. Blum. Is that correct?
    Mr. Phalen. I don't know precisely. I do--I
    Mr. Blum. USIS, correct? They were circumventing the rules, 
the contractual rules? So I'm glad to hear they were 
terminated. In fact, I'm surprised.
    Mr. Phalen. Yes, sir. The relationship was terminated with 
them, and it was done fairly abruptly, and the individuals who 
were working for them, most of them did not come back into the 
service with any other contractor. They left the business. And 
so, that was about a 60 percent loss in capacity in the space 
of just a handful of single-digit weeks, almost overnight. And 
it has taken to, now, to build up that capacity, contractually, 
and through Federal hires, to get to a number that begins to 
approximate where we were in the early fall of 2014, when that 
contract was terminated.
    Mr. Blum. So do we have a goal?
    Mr. Phalen. Goal in terms of?
    Mr. Blum. Goal of investigative backlog by a certain date, 
we want to be at a certain level?
    Mr. Phalen. I have an approximation. We are dependent upon 
certain changes in process. Two things will have an impact on 
our ability to bring this backlog down.
    Number one is hiring investigative capacity beyond what we 
have today. And we have commitments from all four of our 
suppliers to continue building that capacity to the extent 
possible. And if they are able to meet the goals that they have 
set for us, it will take approximately 3 years or so to bring 
down that inventory number to a manageable level that we want, 
perhaps even a little longer. That's without any other 
intervention.
    The second level of intervention that would make a 
significant difference in our inventory numbers and our ability 
to hit timeliness goals would be our ability to look within the 
population that is already cleared, what is today covered by 
periodic reinvestigations, and leverage the advantage we have 
with continuous evaluation and other programs that go by 
different names, but do the same thing that will allow us, 
perhaps, to focus periodic reinvestigations into something that 
is less periodic and more focused on individuals that need that 
level of scrutiny and rely on the continuous evaluation tools 
to give us early warning, give the agencies early warning of 
folks that are representing a graver threat and not wait until 
the 5-year mark to find this problem. And that would take 
inventory out of my organization and allow me to focus my 
assets and my resources on what is the most important step, 
that first one, which is a baseline development of a level of 
trust in an individual first entering the Federal service or 
into a classified.
    Mr. Blum. So 3 years to get to--would that be like 125,000?
    Mr. Phalen. 180,000 is our goal.
    Mr. Blum. 180,000.
    Mr. Phalen. And our other goal is to meet the guidelines or 
the standards of an IRTPA, which is 80 days to complete a top 
secret investigation, and 40 days to complete a secret 
investigation. And just for clarification, the 3 years is me 
being terribly optimistic. It could be an extra 1 or 2 years 
beyond that. But that's----
    Mr. Blum. The investigations have become much more labor 
intensive?
    Mr. Phalen. They have.
    Mr. Blum. Especially since the theft of classified 
intelligence by Edward Snowden?
    Mr. Phalen. Yes.
    Mr. Blum. Now someone to the investigation has to be face-
to-face versus telephonically? Do you agree with that, or do 
you think that's an overreaction?
    Mr. Phalen. So actually, investigations have been required 
to be face-to-face, for the most part, since when I was doing 
investigations, if not earlier, back in the early 1980s. The 
default is to do it face to face.
    And what we have done with some of our mitigation efforts 
working, again, with the security suitability executive agent 
and the Department of Defense, is look for those opportunities 
where we can use technology, whether it is a telephone, or 
something as secure, video teleconference, to get to people who 
are in areas that we can't otherwise get to very easily.
    Mr. Blum. Can we make it less labor intensive?
    Mr. Phalen. Exactly.
    Mr. Blum. Can we do that? Is that possible through the use 
of technology?
    Mr. Phalen. Yes, it is.
    Mr. Blum. And that's in our plan, I assume?
    Mr. Phalen. The telephonic changes we're doing today. We 
have been running pilots with the video teleconference, 
particularly getting into areas in combat zones and other 
inaccessible zones to get to military members and have that 
conversation with them where we can't get an investigator on 
the ground. And we've been doing that as a pilot now for 
probably 4 or 5 months. It's been very positive working with 
the Air Force, and they would like to go more mainstream with 
that.
    Mr. Blum. And in closing here, I would like to say, though 
it's caused you an issue, USIS, that contract being terminated, 
I'm glad to hear that, because, to me, that represents 
accountability. So thank you for your answers. And I yield back 
the time I do not have.
    Mr. Meadows. I thank the gentleman. The chair notes the 
presence of our colleague, the gentleman from Illinois. Mr. 
Krishnamoorthi. You think your name is tough, I ask unanimous 
consent that he be fully allowed to participate in today's 
hearing. And without objection, so ordered. And so the chair 
recognizes the gentleman from Illinois.
    Mr. Krishnamoorthi. Thank you, Mr. Chairman.
    Mr. Reid, on September 6, 2017, Daniel Payne, the Director 
of the Defense Security Services, made headlines when he spoke 
at the Intelligence and National Security summit.
    This summit was hosted by the Armed Forces Communications 
and Electronics Association and the Intelligence and National 
Security Alliance.
    Director Payne said this, and I quote, ``On a weekly basis, 
I got murderers who have access to classified information. I 
have murderers, I have rapists, I have pedophiles, I have 
people involved in child porn. I have all these things at the 
interim clearance level, and I'm pulling their clearances on a 
weekly basis. This is the risk we are taking.''
    Mr. Reid, are you aware of these statements?
    Mr. Reid. Yes, Congressman.
    Mr. Krishnamoorthi. Do you agree with him that murderers, 
rapists, and pedophiles have been given security clearances in 
the past?
    Mr. Reid. Congressman, I've spoken, I work for Dan Payne 
every day in our jobs. And in the first instance, I would just 
submit that immediately after this excerpt was published, we 
talked about this in terms of the context of his remarks, and 
the most important point he was trying to make, respectfully, 
was the impact of interim clearances and the effects of the 
backlog.
    There are numbers that we can associate with revoked 
interim clearances, and we can provide that. I'm not sure it's 
appropriate to articulate those publicly. They refer to 
different categories of behaviors that are flagged.
    There is a volume of some 200,000 interim clearances that 
DSS authorize. And the Director can authorize interim 
clearances under certain conditions for industry contractors, 
about 200,000 a year. Several dozen of those you can map to 
some of these behaviors he was describing, but I would just 
say, Congressman, again, the description was intended to be 
more figurative than literal in terms of murderers and rapists. 
There are categories of behaviors that are within the 
guidelines that flag clearances. And that is what Dan was 
referring to. And we can certainly provide the numbers.
    Mr. Krishnamoorthi. Okay. Well, to me, I mean, murder is 
murder, rape is rape. In response to these alarming reports, on 
October 5, our full committee ranking member, Elijah Cummings, 
sent a letter requesting documents about these allegations. 
Because of the urgency of this matter, he requested them by 
yesterday, but so far, we have not received anything. No 
documents, no briefing, no responses at all.
    Why is that, Mr. Reid?
    Mr. Reid. It's my understanding, Congressman that the 
Department is pulling a response together, and I'll have to 
verify, when I get back, exactly where it is and when it's 
coming over. But I am fully aware they are developing the 
response requested from the chairman.
    Mr. Krishnamoorthi. We want to know when we can expect to 
receive this information, sir.
    Mr. Reid. All right, sir. I'll take that back to the 
building as soon as I get out of here and we'll track it down.
    Mr. Meadows. Excuse me. If the gentleman will yield for 
just a second?
    Mr. Krishnamoorthi. Sure.
    Mr. Meadows. I mean, he makes a valid point. If there was a 
deadline for yesterday, and we're talking about security 
clearance backlogs, and you're having a hard time responding to 
a simple request from the ranking member, at what point are we 
going to get a response. Do you have staff here with you today?
    Mr. Reid. Sir?
    Mr. Meadows. Do you have staff here with you today?
    Mr. Reid. Do I have my staff here, sir?
    Mr. Meadows. Do you have some staff here with you 
accompanying you here today?
    Mr. Reid. We have our legislative liaison, sir.
    Mr. Meadows. Let them check while we're going through the 
interview process. I'm sure that we would love, both in a 
bipartisan manner, to have some kind of update on when he can 
expect it.
    Mr. Reid. Yes, sir.
    Mr. Meadows. I'll yield back and I'll extend your time.
    Mr. Krishnamoorthi. Thank you. Thank you, Mr. Chairman. And 
I echo the chairman's sentiments. You know, we would, you know, 
respectfully request that these documents be provided within 48 
hours at this point. It shouldn't take longer than that.
    Do you understand my request?
    Mr. Reid. Understood, sir.
    Mr. Krishnamoorthi. What risk does this pose when you allow 
criminals with those different behaviors, like the ones 
Director Payne described, to have access to classified 
information, sir?
    Mr. Reid. I'm not sure if I understood the question. The 
suggestion is not that known criminals are granted 
clearances;the clearance-granting guidelines are consistent. 
The comment was aimed at behaviors that occur once people are 
in the workforce, and they create certain violations and their 
clearances are revoked. It's not the other way around. It 
wasn't a comment that a murderer is granted a clearance. The 
comment is someone with a clearance exhibits a certain behavior 
that breaks the threshold that's allowable. And it could be of 
any category. It's not, you know, murder is not the only 
category. That's obviously a very powerful category. There are 
other behaviors when the guidelines that one's clearance will 
be suspended.
    Mr. Krishnamoorthi. Now, if there's a backlog in processing 
these people, and they have committed these behaviors and they 
have clearance, that poses a risk. So what kind of risk does 
that pose?
    Mr. Reid. Well, again, there is not a backlog in 
identifying behaviors that break the threshold and raising 
those up for adjudication as soon as they are discovered. That 
is, that is not the context of the backlog.
    When we're referring to a backlog, we're talking about 
cases that are in an open investigation. Your commentary, 
Congressman, we're talking about people that are in the 
workforce, in this case, with an interim clearance, they 
exhibit a certain behavior, it raises a threshold as soon as 
it's reported. Those aren't backlogged.
    Mr. Krishnamoorthi. So somebody who has committed these 
behaviors could be on interim clearance, correct? It's not 
automatically revoked or anything like that. It goes through an 
adjudication?
    Mr. Reid. The revocation process is the same for everyone. 
If the behavior becomes known, when it becomes known, it is 
reported through the security managers and raised up for a 
decision. Again, there's different categories of behaviors, but 
they all get acted upon. That is not a phenomenon--the backlog 
phenomenon we're referring to is not associated with flagging 
of behaviors.
    Mr. Krishnamoorthi. Mr. Phalen, let me just turn to you for 
a moment. Do you have an estimate of how often the government 
relies on interim clearances as a result of the current 
backlog?
    Mr. Phalen. I have an estimate, based on information I've 
received from the Department of Defense. And I think Mr. Reid 
just mentioned, there's as many as 200,000 today in the 
Department of Defense that are carrying an interim clearance, 
which is, essentially, all the national level, and to the 
extent we can capture them, local name checks and other 
electronic information that we can capture; plus no indication 
of misbehavior on the application to start with. And that 
allows them to put him in an interim clearance status pending 
the complete outcome.
    Mr. Krishnamoorthi. Thank you.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes himself for a series of questions. So, 
Mr. Phalen, would you say part of the reason why Mr. Reid is 
wanting to take over is because you have such an extraordinary 
large backlog in clearances.
    Mr. Phalen. I think the backlog in clearances has been a 
significant catalyst in people asking how to reexamine, how to 
rethink the process of doing clearances. And certainly----
    Mr. Meadows. So what hope would you give Mr. Reid that 
you're going to get it fixed? Because if you're not--listen, 
I'm agnostic in this in terms of whether it's you or Mr. Reid, 
but I am not agnostic in terms of it being both.
    Mr. Phalen. No, I understand.
    Mr. Meadows. And so at some point, we're going to have to 
get serious about the backlog. You know, Mr. Hodgkins says it 
was Groundhog Day all over again. And what I don't want is 
another hearing a year from now to find that the backlog is 
still at 700,000-plus. So what are you doing to alleviate Mr. 
Reid's concern?
    Mr. Phalen. So fair question. So, number one, assuming we 
are left to our own devices here to work off the backlog and to 
work for the future, is to build the capacity and work within 
today's guidelines to reduce the levels---
    Mr. Meadows. So why haven't you done that already?
    Mr. Phalen. We are working on that. We've increased----
    Mr. Meadows. I understand it's a work in progress.
    Mr. Phalen. Right.
    Mr. Meadows. But we're at 700,000.
    Mr. Phalen. Yes.
    Mr. Meadows. So why have you not put that--I mean, how can 
you be more aggressive, I guess, may be a better way to phrase 
that on alleviating some of the concerns?
    Mr. Phalen. So continuing to grow that capacity, which, 
again, and we've seen from experience, that the growth in 
investigative capacity is the single biggest positive effect 
upon reducing the backlog and getting to timeliness.
    The second piece is working very hard, and we've gone 
through two cycles of this now, in finding opportunities to 
reduce the level of effort that is required without 
compromising our virtues, but reducing the level of effort 
required to complete a clearance. And I would say, the third 
thing that we are beginning to work on, and this is a 
collective agreement amongst all of the principals, and I think 
one or two of the speakers already mentioned, is that we need 
to look at the future and fundamentally ask ourselves how do we 
do this differently?
    Mr. Meadows. Well, but Mr. Hodgkins made the point, he said 
that you should have looked at that 10 years ago.
    Mr. Phalen. Sir, I wasn't in this role 10 years ago, but 
he's right. I would perhaps argue we should have look at this 
longer than 10 years ago. I have found evidence----
    Mr. Meadows. So what you're saying is you're new to your 
role and you're taking this serious and you're going to make an 
effort to accommodate and make sure that Mr. Reid gets the 
security clearances that he needs?
    Mr. Phalen. The short answer is, that's exactly why I came 
back into the Federal service to do that task.
    Mr. Meadows. All right. So Mr. Reid, let me come back, 
because I think there was a little bit of cross-talk between my 
colleague here to my right and what you were saying. He was 
talking about interim security clearance. You said that there 
was, what, 3 dozen? Several dozen? Several dozen?
    Mr. Reid. Of the 200,000 interims that were granted by DSS 
in 2017, there were some number--I don't have it--I can look it 
up here, 100-plus or so that fell into the revocation status. 
And within those categories, single and some double-digit 
numbers that refer to sexual misconduct, criminal behavior, 
that's what I was trying to characterize to the Congressman.
    Mr. Meadows. So, but on an interim basis, would not a 
normal background check have picked that up?
    Mr. Reid. Again, these are behaviors that are occurring 
after they are granted.
    Mr. Meadows. Well, but the very definition of interim is 
that you're actually going into a setting where you're getting 
a security clearance. And so as we look at that interim basis, 
that's what I'm saying, your testimony and what he asked 
doesn't seem to be jiving. Because I've got several employees 
that are now working for the administration that are on interim 
security clearances. They left my employment and they went to 
work where they had to get a security clearance. Well, you 
would think at that particular point, when they get an interim, 
they would do a normal criminal background check. So did you do 
criminal background checks on all of those people?
    Mr. Reid. Everyone that is granted an interim is granted an 
interim only when they submit a request for a clearance. And as 
Mr. Phalen said, if their initial screen comes up with nothing 
derogatory, and I don't want to get technical, but if they meet 
the bar of no derog, they can be granted an interim clearance. 
And it depends on what job they're in. It's not uniform across 
even DOD----
    Mr. Meadows. No, I get that.
    Mr. Reid. They're still--their investigation goes into the 
queue. And that investigation will run its course and come back 
final, once it's adjudicated. Within that time frame, if people 
misbehave----
    Mr. Meadows. This isn't any first rodeo, I get that.
    Mr. Reid. Okay.
    Mr. Meadows. I understand the process.
    Mr. Reid. I'm sorry, if I'm not understanding----
    Mr. Meadows. What I'm saying is, is before you give them an 
interim clearance, do they pass just a normal criminal 
background check?
    Mr. Reid. An initial check, yes, sir.
    Mr. Meadows. All right. So every one of those people that 
he had on the list, passed a criminal background check?
    Is that your----
    Mr. Reid. Yes, sir. The initial checks. The initial layer 
of checks, with nothing derogatory, you may grant them an 
interim.
    Mr. Meadows. All right. And so how do you find this? Was it 
when they got their security clearance?
    Mr. Reid. The behaviors occurred after they were granted 
clearance.
    Mr. Meadows. So you had murderers and all of that after----
    Mr. Reid. The examples of misbehavior were in the context 
of Mr. Payne's comments, things that were occurring to people 
that had been granted----
    Mr. Meadows. So they weren't missed in your interim 
clearance?
    Mr. Reid. Correct.
    Mr. Meadows. Every one of them?
    Mr. Reid. Best of my knowledge, sir.
    Mr. Meadows. All right. Well, that's why it's imperative 
that you get the kind of information to the ranking member that 
he requested. And so I assume--I'll give you just a second to 
turn around to your staff. Is somebody working on that to get 
us a response?
    Mr. Reid. Working on it, sir.
    Mr. Meadows. All right. Very good.
    So Mr. Reid, what makes you think that you can do it better 
than Mr. Phalen?
    Mr. Phalen. I appreciate that question, sir.
    Mr. Meadows. This is softball. This is your chance to hit 
it out of the park.
    Mr. Reid. I appreciate it.
    Mr. Meadows. And if you swing and miss, it's going to have 
consequences. So go ahead.
    Mr. Reid. Don't you know it. I appreciate it.
    It's not 10 years ago. What's different now, and what's 
only in the last few years made available to us, is the ability 
to fuse multiple sets of data, data that have been put in place 
as a result of incidents, some of which were referred to, Navy 
Yard, Fort Hood shooting, Snowden, Manning.
    We have a large enterprise within DOD for an Insider Threat 
Program. We have, at the component level, 43 subcomponents in 
the Department have Insider Threat monitoring programs.
    We have a continuous evaluation program that I've been 
exercising on a slice of the Department of about 500,000. We're 
going to be at a million very quickly. We bring in data sets--
--
    Mr. Meadows. So now is this the check that maintains the 
clearance that you're talking about it?
    Mr. Reid. The check that used to maintain the clearance, 
right, correct,
    Mr. Meadows. This is not the initial one, this is actually 
on the maintenance?
    Mr. Reid. Well, it could be both. What we are professing--
--
    Mr. Meadows. I understand what it could be. I'm asking what 
it is.
    Mr. Reid. Today we have used our continuous evaluation 
programs that we're conducting only on a sample basis to 
actually highlight behaviors that triggered revocations far in 
advance of when the next periodic review would have been. 
That's proven itself. Our continuous evaluation program, we ran 
pilots over the last several years. We took a completed 
investigation. We took a CE data set and said, ``could you have 
done this investigation the same way using CE?'' And we got 
over 95, 96 percent correlation of things that were found. So 
we've been proving----
    Mr. Meadows. So do you have a technical background? So are 
you an IT guy?
    Mr. Reid. Me, sir? No, sir.
    Mr. Meadows. Okay.
    Mr. Reid. We have IT guys.
    Mr. Meadows. Do you know what blockchain is?
    Mr. Reid. I'm not 100 percent familiar with that term.
    Mr. Meadows. All right. Mr. Phalen, let me skip before I 
let you finish off here. Because, you know, he's making some 
points, and so at what point would you disagree with that?
    Mr. Phalen. To the points he made, I do not disagree with.
    Mr. Meadows. So you think that he should have that ability?
    Mr. Phalen. So I think he has that ability. He has that 
responsibility right now to conduct continuous evaluation.
    Mr. Meadows. So if we took resources from you and gave it 
to him, are you saying that he could do a better job than you 
could?
    Mr. Phalen. No, sir, I'm not saying that.
    Mr. Meadows. Okay. I just want to make sure. That was a 
softball to you.
    Mr. Phalen. Okay. I misunderstood the question, sir, I'm 
sorry. And I'm not sure if the Representative from Illinois is 
a Cubs fan or not.
    Mr. Meadows. He is. You just--not a swing and a miss. You 
did good. Go ahead.
    Mr. Phalen. Okay. What I believe Mr. Reid is referring to 
is the use of continuous evaluation to monitor individuals near 
real time in the workplace. This is different than what is 
today's model, which is to use periodic reinvestigations at the 
5- or 10-year level, which is something that is done externally 
by my organization.
    I believe that much of that work can be supplanted by, 
after due consideration by much of the continuous evaluation 
that is required and being done within the Department of 
Defense, the intelligence community and a lot of cleared 
industry right now. And that that can be leveraged against the 
requirement to do periodic reinvestigations, and that those 
resources that are currently involved in periodic 
reinvestigations within my organization, or in any 
investigative organization, can be redirected towards the 
initial evaluations to work with those people who have not yet 
been cleared and focus our energies on that.
    Mr. Meadows. Okay.
    Mr. Evanina, I got a note here that said, I guess the 
rollout of the continuous monitoring program that was 
originally for, I guess, October of 2016, that you were going 
to roll it out in phases, or it was being rolled out in phases. 
I mean, what are the barriers to making sure that it goes 
government-wide?
    Mr. Evanina. Sir, that's a good question. None. We are 
completely on schedule with our CE program. And it's important 
to back up a sec and talk----
    Mr. Meadows. Hold on. We may have news breaking here. 
You're saying there are no barriers and you're on schedule?
    Mr. Evanina. We are on schedule.
    Mr. Meadows. That is, let me just applaud you, because 
that's probably one of the first times I've ever had in one of 
these hearings where I've gotten both ``there are no 
barriers,'' and ``we're on schedule.'' So kudos to you. Go 
ahead.
    Mr. Evanina. Thank you, sir. But it was not without 
pain,I'll grant you that, to get to where we are now. But I 
think we need to step back a little bit and talk about what 
continuous evaluation is. We decided a few years ago to split 
it up into government. And what DOD's continuous evaluation 
program has been successful at this point is germane to DOD. 
And what Mr. Phalen and BIB are doing is germane to their 
processes. But we were doing at NCSC is providing a service to 
all executive branch agencies to opt into our continuous 
evaluation program to allow agencies to use our services for a 
couple reasons: Efficiencies of scale and cost, as well as 
provide agencies outside the intelligence community who don't 
have the ability to procure these services to have the 
opportunity to get them from us, whether they are one of the 
top seven or eight databases we check. So this is in all-of-
government executive branch program that we're facilitating.
    Mr. Meadows. Mr. Hodgkins, I'm going to ask you one 
question before I recognize the gentleman from Illinois for a 
second round of questions. So we talked a little bit, or you 
mentioned in your testimony blockchain. And for those of us 
that are not technically savvy, fortunately, I have a brother 
that can tell me about blockchains and the secure way that we 
can communicate and compartmentalize that. So as we look at 
that--other that blockchain, what are some of the other 
technology aspects that we could actually deploy, whether it is 
at DOD or OPM that would help streamline this?
    Mr. Hodgkins. Well, the other suggestions I made in my 
testimony referred to artificial intelligence. So the----
    Mr. Meadows. For most of us, that's a danger. We get 
concerned when we hear about artificial intelligence. It is 
kind of--well, I won't go there.
    Mr. Hodgkins. The commercial analogy I can point to, sir, 
is the financial services and how they monitor your credit. And 
if there is behavior that appears to be fraudulent on an almost 
real-time basis, you're notified of that. They are asking you, 
is this you making this transaction, if you travel somewhere 
out of the ordinary.
    Mr. Meadows. So why have we not deployed that today in this 
realm?
    Mr. Hodgkins. Well, as the other panelists have identified, 
they are beginning to roll that out, but it is something that 
industry called for over 10 years ago, suggesting that that 
move to replace the periodic reinvestigation process eventually 
began as, I think Mr. Phalen noted, and Mr. Reid noted, that 
there are high degrees of compatibility, or alignment with the 
manual reinvestigation of an individual and using the automated 
processes and what they find, which has always been the 
question in using this capability. Do they find the same 
things? Will we still find the same bad actors, and identify 
them for the same reasons?
    So it is heartening to hear that that is the direction they 
are moving and that they are making advances and there are no 
obstacles. But using those capabilities in the way the 
financial services market does for credit monitoring, for any 
individual, is an example we would point to, an analogy we 
would point to, about how this could be deployed to look at 
things like criminal histories, although those are poorly 
automated across the country, particularly at the State and 
local level. We can look at marital records; we can look at 
financial records; and then we can look at other databases that 
are out there, either commercially available or in the 
possession of the government.
    And Mr. Evanina noted they are looking at several, and we 
can continue to identify and tie into and bring online 
additional data sets that would reveal other flags about 
someone who holds a clearance, and we think we should continue 
to push out in that direction.
    Mr. Meadows. All right. So the chair recognizes the 
gentleman from Illinois for a second round of questions.
    Mr. Krishnamoorthi. Thank you, Mr. Meadows.
    Mr. Phalen, as the NBIB director, I don't think it is an 
exaggeration to say that you are a key player in our national 
defense and counterintelligence apparatus, making sure that the 
American people can trust secrets to remain secure is a vital 
task. Now, the security clearance process, as we all know, 
relies heavily on the proper completion of the standard form 
86--SF-86 form. And as you know, complete valid and accurate 
answers to the questions on this form are vital for the 
security clearance process.
    What does the NBIB, or any other background investigative 
agency, do to ensure that the information on an SF-86 form is 
accurate? You don't take applicants merely at their word, 
correct?
    Mr. Phalen. Generally not. Much of the process is to 
validate that the information on the form is correct, both in 
terms of locations they worked, locations they lived, their 
claims of either some or no criminal involvement. Essentially 
they are explaining their life on this form, and our goal is to 
go validate that they have been correct in that, and to seek 
other information where it appears that it may be incorrect.
    Mr. Krishnamoorthi. And, obviously, everybody makes 
mistakes. Let's say I made a mistake on the SF-86 form. I'd 
have a chance to correct it. Is that not right?
    Mr. Phalen. So in the subject interview when an 
investigator is speaking to applicant, going over the form, and 
talking to them about things, if there is a mistake to be 
made--that has been made, it can be corrected. And the agent 
will put that into the investigative report and that will be 
captured. What that mistake is may be dispositive of how much 
further we're going to dig. If it's something simple like the 
middle initial being wrong or I got the dates wrong in the 
years I was in high school, not a big deal. But if I forgot to 
mention a significant felony conviction, that would be far more 
substantive and we would want to go pursue that a lot further.
    Mr. Krishnamoorthi. Ah-ha. Forgive me, I'm new to 
government. I spent most of my career as a small businessman, 
so I'm going to ask you some really perhaps some simplistic 
questions in your world. But what if I were to make several 
errors with my SF-86 form, not just one, but a bunch? What 
would happen in that instance?
    Mr. Phalen. Again, it would depend on what kind of errors 
they were. One of the concerns we have had is in the current 
form the electronic SF-86, is to use technical talk, a little 
bit kludgy and can be prone to some level of people making 
mistakes, and so we take that into account. In fact, we are 
working together with other elements of the government to build 
an new electronic application form that is far more user 
friendly, and will lead to less errors on the front end, and 
even perhaps do some fact checking on behalf of the applicable 
doing it. To answer your question, if it was a number of 
errors, it would depend.
    Mr. Krishnamoorthi. I mean, how many do--what if there are 
errors, even in my correction, how many do-overs do I get?
    Mr. Phalen. Fair question. Ultimately, we would capture the 
information as much as we could capture from the applicant and 
try to verify it. At some point, we will make a decision to 
send the information to the adjudication facility that it makes 
the ultimate decision about whether an individual gets the 
clearance and let them judge for themselves as to whether they 
think this is too much or not too much.
    Mr. Krishnamoorthi. I understand. This isn't a hypothetical 
situation. As you know, senior White House advisor Jared 
Kushner submitted four addendums to his security clearance 
paperwork after his original SF-86 forms contained more than 
100 errors and omissions. Mostly related to the failure to 
disclose foreign contacts. Retired General Flynn failed to 
disclose payments of over $600,000 for his work representing 
authoritarian regimes in Washington. Both were approved for 
their security clearances. What would you do if one of your 
employees approved such an incomplete form?
    Mr. Phalen. So I'd un--working in the hypothetical, without 
using any particular subjects on this, if the investigator did 
not--if the applicant said, I didn't do this or I never--or 
failed to report it, the question would be how does 
investigator find it was failed to be reported? And if the 
investigator discovered that it had been failed to be reported, 
the first step would be to go back and try to understand what--
why it was missed and what was missed and capture it again. 
What I don't know in the particular cases you're talking about 
is we have no visibility in our organization to any of those 
activities. Those are done by other organizations, what that 
meant. But there would be a point when an adjudication 
facility, an adjudication organization, has to take into 
account those mistakes. It is not our decision to make that 
decision. It is not in our purview to make that decision. We 
simply report what we know and how many addendums there may be 
to a report, to report that.
    Mr. Krishnamoorthi. Is there ever an instance where someone 
can command you to fast-track the verification of an SF-86 
form?
    Mr. Phalen. It depends how you define fast-track, sir.
    Mr. Krishnamoorthi. Cut corners, fast track, get it 
through, ram it through the system.
    Mr. Phalen. Cutting corners, no. So if people ask us to do 
things, to put things ahead of queue, yes, we do that all the 
time. To cut corners, we do not do that.
    Mr. Krishnamoorthi. Can you recall if there's ever been an 
application having to submit four addenda detailing over 100 
errors and omissions being able to maintain their security 
clearance once those errors and omissions had been identified?
    Mr. Phalen. I will caveat that by saying I have not seen 
the breadth of all the applications, but I have never seen that 
level of mistakes.
    Mr. Krishnamoorthi. Neither have I. It's clear that there 
is a lot more ground to cover on this. Mr. Chairman, you are 
doing a great job here. I hope that you will convene further 
hearings on this subject, because it really bears 
investigation. Thank you, sir.
    Mr. Meadows. I thank the gentleman from Illinois.
    The chair recognizes himself for a series of follow-up 
questions. So Mr. Reid I interrupted you when you were making 
your closing remarks on why you would do such a fantastic job, 
so I will go ahead and let you finish.
    Mr. Reid. Thank you, Chairman. To continue, the DOD plan we 
talked earlier about goals, our plan is to alleviate the burden 
on the backlog in the near term by shifting that work into an 
alternative process, focusing on the secret level 
investigations. We submit about 700,000 investigative cases to 
NBIB every year, about two-thirds of those are at the secret 
level, initial or reinvestigation. Based on the strength of the 
continuous evaluation, automated records checked and the fusing 
of all these data sets that we have already built within the 
Department to monitor performance and behaviors and spot 
anomalies, we are prepared, as early, starting in January, to 
work with the executive agents to get approval to use these 
systems as systems of records to meet the performance 
requirements, the Federal standards required to approve a 
secret level clearance.
    Doing that--so that process we'll start in January, we 
envision within a few months, having those approved. We turn 
off the spigot of new secret cases. Again, this is about 
500,000 a year that go to NBIB. We will incrementally do this, 
alleviate the pressure valve on their system, allowing the 
capacity they already have to focus on the workload they 
already have and to prove this system as we build it. It's a 
phased process focusing initially on the secret.
    More than 90 percent of NBIB secret cases are DOD. This is 
very much a DOD issue. Almost every servicemember--in fact, 
every servicemember is cleared at the secret level upon entry 
into the service. So we have a very high volume, and we feel 
like the risk--the risks associated with this, knowing that we 
have proved and piloted systems, it is worth taking the next 
step to take the pressure off.
    Mr. Meadows. Tell me about the pilot.
    Mr. Reid. We ran pilots for several years in DOD.
    Mr. Meadows. How many people?
    Mr. Reid. Total that we piloted actual cases on, it is in 
the hundreds of thousands. And we have enrolled----
    Mr. Meadows. And you were able to complete those how 
quickly?
    Mr. Reid. We put the pilots in place, we ran them for 
periods of 6 months at a time. For instance, initially, we took 
a slice of people----
    Mr. Meadows. So how much faster than Mr. Phalen is doing 
it?
    Mr. Reid. Well, they are not doing it at all presently but 
we are----
    Mr. Meadows. Because--I would beg to differ on that 
particular thing. So how much faster than Mr. Phalen? Mr. 
Phalen, are you doing that?
    Mr. Phalen. So, I would probably need to clarify whether we 
are talking about initial investigations or periodic 
reinvestigations.
    Mr. Meadows. I think we are talking periodic re----
    Mr. Reid. Initially, secret level periodic going within 2 
years to initial secret.
    Mr. Meadows. Right.
    Mr. Phalen. So currently we are running the same automated 
checks through our system, what we have to do under today's 
process.
    Mr. Meadows. So you're shaking your head no. Is he not 
doing the same automated checks? You are both sworn testimony. 
So is--Mr. Phalen, are you doing those automated checks?
    Mr. Phalen. When you put their system and ours side by 
side, we are doing the same automated checks.
    Mr. Meadows. Mr. Reid, you're shaking your head no.
    Mr. Reid. When we implement the DOD plan, which we want to 
start in January, the initial phase of that is to gain 
additional approvals. That's the part where I said what we are 
proposing to do isn't that same as what's being done today.
    Mr. Meadows. So you pilot program--is he doing the same 
thing--in your pilot program, did he do the same thing?
    Mr. Reid. Today those things are being done based on the 
pilot.
    Mr. Meadows. Yes or no, just tell me yes or no. In your 
pilot program is he doing the same thing that you did in your 
pilot program?
    Mr. Reid. Not to my knowledge.
    Mr. Meadows. Mr. Evanina, is he doing the same thing?
    Mr. Evanina. Sir, I'm not sure of the fidelity of both 
programs to answer.
    Mr. Meadows. Sure, I'm all ears.
    Mr. Reid. We are not using these systems now as systems of 
record to complete investigations, and neither, I believe, is 
NBIB. We have data available. We have employed methods of 
automated records, checking and seeing. We have not implemented 
those as a system that can grant, one, a completed 
investigation. That is the step that we want to take in----
    Mr. Meadows. So how do you know that that will work?
    Mr. Reid. I'm sorry?
    Mr. Meadows. How do you know that that will work?
    Mr. Reid. Because we have run the test and run the pilots. 
We feel----
    Mr. Meadows. No. How much quicker are you doing things than 
OPM?
    Mr. Reid. We will implement this starting in January, 
within the first 12 months, we have a three-phase plan. By the 
end of the first phase, we believe we will reach a point where 
there will be no more secret reinvestigations, which is about 
300,000 a year that will not go to NBIB, made the first year.
    Mr. Meadows. A critical thing, you said ``we believe.'' 
What quantitative data do you have to support your belief?
    Mr. Reid. The data would be based on the pilots, and the 
testing that we've done, and our confidence in our executive 
agents.
    Mr. Meadows. Confidence is not quantitative.
    Mr. Reid. You're correct, sir. We have tested these 
systems, and we believe they are ready to be implemented. We 
have to work with the executive agents to gain their approval 
to implement them.
    Mr. Meadows. Mr. Phalen?
    Mr. Reid. It will be done much faster.
    Mr. Meadows. Mr. Phalen, do you agree with that? Can they 
do it better than you can do it? Here is the thing, is my 
problem, and actually it has been mentioned over here, moving 
something from one bucket of the government to another bucket 
of the government does not necessarily create more efficiency. 
It--generally, it does not. And so I am skeptical that we are 
going to get all these unbelievable efficiencies just by moving 
it from one government agency to another. And what we're going 
to do is end up with duplicative services, and I'm all about 
shared services, you can Google it and you can figure out where 
I am on that. I am all in. But what I'm not about is allowing 
DOD and OPM to do the same thing when, Mr. Phalen, you said 
that the basic problem that you have is getting talent to 
actually do these checks. Is that correct?
    Mr. Phalen. To do the checks that involve a human-on-human 
interaction, yes.
    Mr. Meadows. So how are you going to fix that, Mr. Reid?
    Mr. Reid. The efficiency, sir, it is a three-part process. 
There is submission, investigations and adjudications.
    Mr. Meadows. So would you submit that DOD is a model of 
efficiency?
    Mr. Reid. I'm suggesting that putting submissions, 
investigations and a adjudications under a single agency is 
inherently more efficient because of the ability----
    Mr. Meadows. If that's your argument, then we would put it 
all under OPM.
    Mr. Reid. Well, sir, because the level of data that we 
intend to bring into this process resides within our components 
and there's data--monitoring data that is not readily 
exportable to be outsourcing the readiness of the Department of 
Defense. We have an opportunity because of the maturation of 
these programs, these insider threat and CE programs, this is 
the first opportunity we've have to bring all of this under an 
integrated architecture. And it's----
    Mr. Meadows. So in your pilot, what did you figure out that 
you didn't do well?
    Mr. Reid. We--it was mentioned earlier, solely relying on 
electronic data sets, there are gaps in State and local law 
enforcement flags that, to the best of our piloting, we can't 
reach out into every county jurisdiction in real time and find 
out something happened last night. Okay?
    So the next step is to continue to bring in all--as many 
sources as we can, and with the right algorithms and we are 
using our innovation offices to develop these processes, to see 
how far you can go before you have to actually get to somebody 
knocking on somebody's door. We've never proven that nobody 
ever needs to knock on anybody's door. But with the secret 
level of checks--the top secret is definitely harder, but at 
the secret level, we have enough experience in this to be 
prepared to recommend to the executive agents that it is a 
suitable alternative process to meet the intent of the Federal 
guidelines doing the checks to verify the veracity of the 
individual's application and the reliability of the individual, 
a large majority of that at the secret level initially.
    We believe we can get further, but we're focused on secret 
up front. That's the largest piece of work we give them, that 
that data is in the Department already, we don't think it's 
necessary to build a separate process to send it somewhere. We 
are building the entire end-to-end IT system, that was already 
the DOD task from the review that created NBIB. That is a DOD 
system. It is a DOD system with DOD data. The missing piece is 
our investigative responsibility relies there. But it is not a 
bifurcation. They do 100 agencies. There are 23 other agencies 
that do what we're asking to do.
    Mr. Meadows. Mr. Phalen, I mean, Mr. Reid's making a 
compelling case. I mean how do you respond?
    Mr. Phalen. I respond on a couple of threads. I think we 
are in complete agreement. Where I would concur with what his 
statements are is that in the realm of the periodic 
reinvestigation, there is information within each agency that 
has responsibility for the folks in that agency that are 
cleared, whether staff or contractor. They all have information 
that generally is not available to our investigators when they 
are doing----
    Mr. Meadows. So you're saying that they are better suited 
to do that?
    Mr. Phalen. I think any agency is better suited to work on 
those and people that are already inside the organization. They 
will have a better optic----
    Mr. Meadows. So what are they not better suited at?
    Mr. Phalen. I defer whether it is better suited or not 
better suited, but for----
    Mr. Meadows. No. I'm asking you for your opinion. I mean, 
Mr. Reid gave me his opinion very clearly. If not, you're going 
to have a missed opportunity here. I want to have your opinion.
    Mr. Phalen. We have both an electronic and a geographic 
reach that is across this country, and for any initial 
investigation at whatever level, tier one through tier five, we 
have the ability to reach out, real or near real time, to find 
information. They don't have that capacity today.
    Mr. Meadows. How would you get that, Mr. Reid?
    Mr. Reid. We have 43--40-something field offices under the 
Defense Security Service in the United States, we have 
combatant commands in investigative capacities stationed all 
over the world.
    Mr. Meadows. But that doesn't make you efficient.
    Mr. Reid. No. But that's how we would cover the same 
ground. We have field offices, others have field offices, we 
have a robust----
    Mr. Meadows. So Mr. Phalen, I may have misunderstood you. 
Is it your presence that allows you to do that, that you have 
multiple locations, because that's what Mr. Reid is saying. I 
didn't think that's what you were referring to.
    Mr. Phalen. So it is both electronic presence where we can 
get information electronically, and it is physical presence at 
86 field offices around the country, and folks stationed at 
overseas locations to do this work. And that's what allows us 
to get the local records, and to what is a key piece, 
particularly to a periodic reinvestigation as it exists today 
within the process and any initial investigation, that there is 
a human-to-human interaction at wherever that person is, and 
that is literally geographically around the country. And we 
have that presence today with accredited, training, fully 
capable investigators, both staff and contract.
    Mr. Meadows. So how long, Mr. Reid, would it take you to 
get up to speed to match that capacity?
    Mr. Reid. So our plan is the 36-month plan. We would phrase 
in incrementally over the 3-year period, so by the end of year 
3, our plan would be complete. We would have the capacity and 
the processes.
    Mr. Meadows. So how much quicker will you be able to do 
background checks for DOD, Mr. Reid?
    Mr. Reid. We would eliminate the reinvestigation, so that's 
a zero.
    Mr. Meadows. I'm looking for----
    Mr. Reid. Let's remove that completely. The goals for the 
government----
    Mr. Meadows. You don't remove it, you just move it.
    Mr. Reid. Well, it just happens contemporaneously.
    Mr. Meadows. But if Mr. Phalen had the same kind of 
operation, where it is ongoing, similar to what Mr. Hodgkins is 
talking about from the technology standpoint, I mean it's a 
distinction without a difference.
    Mr. Reid. We see no reason why we cannot hold ourselves to 
the standards and the goals that we set, which for instance is 
80 days for a top secret clearance that is currently taking 
350.
    Mr. Meadows. So your sworn testimony today is that if we 
allow you to go forward and do this, and we appropriate the 
dollars to do this, that you can do this at less cost than Mr. 
Phalen, and make sure that you get it done in 80 days versus 
300?
    Mr. Reid. The cost savings and cost avoidance would be and 
the reduction of reliance on field investigative work, which is 
the most resource intensive. Our testing shows us that we can 
go a very long way towards eliminating, but not completely 
getting rid of it. The 80-day standard, which has been achieved 
in government since it was established, it is being frustrated 
by the lengthy field work. So our rationale is if you get rid 
of the reliance on the field work, even increased field workers 
is still more field work. The goal--the DOD objective is to 
reduce, as much as possible, a 90-plus percent level, the work 
effort required by a field investigator, and our planning basis 
is that lowers, that's a cost avoidance issue and there is it 
no reason to think we cannot operate within the standards that 
we've already set.
    Mr. Meadows. Mr.--so let me go ahead bring this to a close, 
and I guess with a few to-do items.
    Mr. Phalen, I would like for you, within a 30-day period, 
to get back to this committee, what are the three major 
concerns that you would have, other than just shifting 
responsibility from OPM, what are the three major concerns that 
you have in allowing Mr. Reid to go forward with his plan? All 
right? Can you do that?
    Mr. Phalen. Yes, sir.
    Mr. Meadows. Mr. Reid, you've had probably more direct 
questioning today than perhaps you're used to. And call me, you 
know--we get all kinds of people that come in and testify on a 
regular basis, and I hear every wonderful story on why it is 
going to be better, and very seldom do I hear a comment like 
Mr. Evanina gave me on the excellent work that they are doing 
and the fact that they are on time and not having roadblocks. 
And yet, I get to visit Federal workers in a number of agencies 
across the spectrum, and we have great Federal workers. So it 
is not to question anything in terms of your intent. My 
question is, is sometimes long before what you believe that you 
can do and actually doing it, there are all kinds of roadblocks 
that you run into. Some of those many times are financial. And 
so the last thing I want you to do is to give sworn testimony 
here today only to find out that all we're doing is shifting it 
from one agency to another, and that you're going to come in 
and ask me for more money and more resources to meet that 80-
day goal that you have in mind.
    So here is my three asks of you: I want you to identify 
what duplicative services that you would potentially have with 
OPM if you instituted your plan policy. The other two things is 
what two things do you not--would you not do as well as OPM 
under this rollout. Is that something you could provide to this 
committee in 30 days.
    Mr. Reid. Yes, sir.
    Mr. Meadows. And the quicker you can get that to me, 
because decisions are going to be made on NDAA, even before 
those--I mean, we're going to conference here soon. And so, Mr. 
Reid, to be fair to you, I want you to make a compelling case, 
even if you need to come in and do a briefing with our 
committee on why it is important to you that things perhaps--
because I can tell you your staff has been passing notes back 
and forth, they are going back and forth doing that, don't ever 
play poker, but in doing that, they've got all kinds of things 
that they wish you had said or hadn't said or as we look at 
that--so as you do that, as your team gets together, I would 
encourage you to actually come back and brief our committee. 
Mr. Phalen, I would encourage you the same way. There's going 
to be some decisions that are made very quickly here on this 
particular issue. I apologize to both of you that most of the 
focus has been over here, but sometimes that's the way that 
things happen when you have this. Again, I appreciate both of 
you being here as witnesses. The only item--and I see they've 
passed you a note so are we--when can the ranking member expect 
those documents?
    Mr. Reid. So----
    Mr. Meadows. Within 80 days?
    Mr. Reid. Friday, sir, Friday.
    Mr. Meadows. Friday is fine. That would be great. I 
appreciate it.
    I appreciate all of your testimony. Listen, there is 
nothing more important than getting this right, and getting it 
right quicker than what we're doing now, Mr. Phalen. I mean, 
the backlog is, quite frankly, unacceptable. And we wouldn't be 
having the hearing today if I wasn't hearing it from across the 
board. That is not to impugn the fine workers at OPM. I 
understand you didn't create the bureaucracy, but you are here 
to fix it. And if we can get this fixed, even if it is in a 
combination of things, I'm all in and all ears. But I thank you 
all. If there is no further business, the committee stands 
adjourned.
    [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
